                                 NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




          OFFICE OF
     INSPECTOR GENERAL



    MEMORANDUM

    Date:             March 31, 1999



    From:
I



    Through:

    Re:


    Background




                                                                                             I
    well.

    investigation

    We requested participant support documentation for participants in t h e p r o g r a m
    from the                                       We received the lists of payment made land
    the sign-[ sheers wnicn were used to determine who would get paid, and in what
     amount. Approximately 800 payments were made, based on over 2,000 participant
     signatures. A total of 26 payments were unaccounted for by a signature of the participant.
    w e requested verification of these 26 participants from the
    h i c h they provided.

                    , former project manager of the r o g r a m , has confirmed that
                                                                                - -- there

                             the Universityd-o
                                             f             the
    and that both state and NSF funding is being spent on this project.             1

    Findings

    Review of participant support signatures and payments indicated that all payments were
                                                                                         I


    supported by source documentation. This case 1s closed.
